<html>
<title> - [H.A.S.C. No. 115-45] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2018 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FIFTEENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 115-45]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2018

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

         SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES HEARING

                                   ON

             AMPHIBIOUS WARFARE IN A CONTESTED ENVIRONMENT

                               __________

                              HEARING HELD
                              MAY 18, 2017


                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                              _________ 

                   U.S. GOVERNMENT PUBLISHING OFFICE
                   
25-838                     WASHINGTON : 2018      

                                     
  


             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                 ROBERT J. WITTMAN, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
VICKY HARTZLER, Missouri             SUSAN A. DAVIS, California
BRADLEY BYRNE, Alabama, Vice Chair   JAMES R. LANGEVIN, Rhode Island
SCOTT DesJARLAIS, Tennessee          MADELEINE Z. BORDALLO, Guam
MIKE GALLAGHER, Wisconsin            JOHN GARAMENDI, California
DUNCAN HUNTER, California            DONALD NORCROSS, New Jersey
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
STEPHEN KNIGHT, California           A. DONALD McEACHIN, Virginia
RALPH LEE ABRAHAM, Louisiana
                Dave Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                          Jodi Brignola, Clerk
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Courtney, Hon. Joe, a Representative from Connecticut, Ranking 
  Member, Subcommittee on Seapower and Projection Forces.........     2
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Seapower and Projection Forces.......     1

                               WITNESSES

Martin, Bradley, Senior Policy Researcher, RAND Corporation......     3
Sloman, Jesse, Analyst, Center for Strategic and Budgetary 
  Assessments....................................................     5

                                APPENDIX

Prepared Statements:

    Martin, Bradley..............................................    29
    Sloman, Jesse................................................    42
    Wittman, Hon. Robert J.......................................    27

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mrs. Davis...................................................    53
    Mr. Langevin.................................................    53
    
    
             AMPHIBIOUS WARFARE IN A CONTESTED ENVIRONMENT

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                            Washington, DC, Thursday, May 18, 2017.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2212, Rayburn House Office Building, Hon. Robert J. 
Wittman (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Wittman. I call to order the House Armed Services 
Subcommittee on Seapower and Projection Forces. I want to 
welcome everyone here today. I thank our witnesses for being 
here. We do have votes that will be called at some point. So 
what we are going to try to do is to get through our opening 
statements and the witnesses' opening statements and then take 
a short recess to go vote, and then we will be back.
    Well, again, I want to thank our witnesses for joining us 
today and our members. As the Seapower and Projection Forces 
Subcommittee chairman, I lead a group of my colleagues with 
broad jurisdiction over naval and Air Force programs. And I 
must admit that I have a particular affinity to the United 
States Marine Corps and its amphibious warfare role, because I 
represent Marine Corps Base Quantico in Virginia's First 
Congressional District.
    Because of my district and because of this subcommittee's 
jurisdiction, I am particularly interested in our subject today 
of assessing our Marine Corps' ability to project forces in a 
contested environment.
    Late last year, I was particularly intrigued to read a 
report authored by one of our witnesses today entitled 
``Advancing Beyond the Beach: Amphibious Operations in an Era 
of Precision Weapons.'' In this report, the authors propose 
that the current approach to amphibious operations needed, and 
I quote, ``new operating concepts and capabilities that 
circumvent or defeat increasingly effective coastal defenses.'' 
Their report proposes a new strategic approach that emphasizes 
lighter vehicles, a rebalancing of the surface and aviation 
assault capabilities, an emphasis on surface connectors that 
optimize ocean travel, and improved armament on amphibious 
ships.
    I believe that the Center for Strategic and Budgetary 
Assessment has accurately assessed the problems associated with 
amphibious assault in a contested environment.
    Projecting power in close proximity to shore in a contested 
environment is fraught with challenges which may require a 
shift in our approach. Fundamental changes to the Department of 
Navy's strategic amphibious warfare investments may be 
necessary to move more effectively above--to move Marines 
ashore. I believe that it is incumbent upon the Marine Corps to 
rapidly change their legacy force structure toward a capability 
that is more expeditionary, capable of fighting in the 
littorals, and, when called upon, able to project power ashore 
in even the most challenging of environments.
    To better assess this issue, I am pleased to have two 
respected authors on amphibious warfare with us today: Mr. 
Jesse Sloman, Center for Strategic and Budgetary Assessments; 
and Dr. Brad Martin of the RAND Corporation.
    Gentlemen, thank you for your willingness to testify before 
our subcommittee today, and I look forward to your assessment 
and recommendations to make our Marine Corps forces more lethal 
and effective than ever.
    I now would like to turn to our ranking member, Joe 
Courtney, for any opening remarks that he may have.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 27.]

     STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
   CONNECTICUT, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Courtney. Thank you, Mr. Chairman, for holding this 
hearing on the future of amphibious warfare in a contested 
environment. As you noted, this has definitely been a real 
focus and passion of yours. So, again, we appreciate your 
leadership on this issue.
    As we have heard throughout our hearings this year, the 
U.S. Navy and Marine Corps team must be prepared to meet new 
challenges as our potential adversaries rapidly improve their 
tactics and technologies to counter America's longstanding 
superiority. This challenge is particularly true in examining 
the future of amphibious warfare.
    The United States Navy and Marine Corps team remains the 
most lethal and advanced amphibious force ever put to sea. As 
recent events around the world have shown, however, we cannot 
afford to rest on our laurels. Rather, we must continue to 
adapt and advance new technologies, tactics, and operational 
concepts to maintain our capacity to strike from the sea 
wherever needed and whenever called.
    However, we must also recognize the realities and 
limitations of existing platforms, equipment, and personnel who 
have not engaged in a contested amphibious assault from the sea 
in more than six decades. We must explore not only how these 
platforms can be modernized to maintain relevancy but also to 
examine how new technologies and operational concepts can be 
employed to ensure America's security and to respond to world 
crises.
    Since the cancellation of the expeditionary fighting 
vehicle in 2011--and I was trying to remember how many hearings 
we had on that; yeah, it was at least close to a half dozen 
before, finally, that decision was made--the Navy and Marine 
Corps have wrestled with what is the right distance for the 
Marines to disembark the ship and what type of vehicle that 
should be in. This is not an easy debate and is one I am sure 
we will talk more about today. However, there is more to this 
than just what distance an amphibious ship should launch its 
vehicles or what type of vehicle that should be. Our military 
is a joint force and will always operate that way in any 
contingency so that we need to be talking about how to fully 
integrate our amphibious forces and ensure that they are 
leveraging the technologies that other forces are relying on.
    I have no doubt of the value that our amphibious force 
provides in responding to an array of contingencies, from 
supporting noncombatant evacuation operations to being the on-
the-scene responder to the world's next humanitarian disaster. 
However, I also recognize that modeling, simulation, and 
exercises predicated on uncontested ambitious operations are 
becoming more outdated by the day. We must be trained, ready, 
and equipped to operate in a contested environment.
    Today, we welcome two experts in this field, Dr. Brad 
Martin and, a graduate of Tufts University, Mr. Jesse Sloman--
we don't see too many Jumbos here, so it is great as a graduate 
to see you here, Mr. Sloman--to help us better understand the 
many underlying challenges of operating in a contested littoral 
environment. I thank them for being here today. I look forward 
to your testimony.
    Mr. Wittman. Thank you, Mr. Courtney.
    We are going to go to our witnesses now.
    Dr. Martin, we will begin with your testimony. Then we will 
go to Mr. Sloman.

  STATEMENT OF BRADLEY MARTIN, SENIOR POLICY RESEARCHER, RAND 
                          CORPORATION

    Dr. Martin. Thank you, Mr. Chairman. Chairman Wittman, 
Ranking Member Courtney, I appreciate the opportunity----
    Mr. Wittman. Dr. Martin, just for a second, we will get you 
to pull that microphone closer to you. There you go.
    Dr. Martin. Okay. Well, Chairman Wittman, Ranking Member 
Courtney, I appreciate the chance to testify today.
    Amphibious operations in benign environments are obviously 
something that are of great importance to the Nation. 
Amphibious forces can be used across a range of military 
operations. And, in fact, they are a normally deploying part of 
our Nation's forward presence. They are marked by flexibility, 
mobility, and scalability, and they can be used in a variety of 
threat environments. They bring the virtue of capability that 
is based and sustained at sea with the ability to rapidly 
project various different types of capabilities ashore, ranging 
from the provision of humanitarian assistance, all the way 
through significant kinetic strikes.
    Navy and Marine Corps continue to make investments in force 
structure capabilities that will both improve and sustain these 
capabilities well into the future. However, a variety of actors 
have acquired ways to contest aspects of amphibious forces and 
landing force movement, and these range from the types of 
weapons that nonstate actors have used against forces in Iraq 
and Afghanistan, such as IEDs [improvised explosive devices] or 
explosive boats--or things of that nature, through more 
advanced and sophisticated systems, such as land-based 
missiles, all the way through sophisticated anti-access and 
area denial capabilities.
    In some of these cases, the threats are significant but 
manageable, but in the most stressing environments, those in 
which opponents have significant A2/AD capabilities, anti-
access/area denial capabilities, the challenges are 
significant, and there are some shortfalls that we are going to 
need to address in the near and far term, and much of my 
testimony deals with this.
    However, as we discuss this, it is important to remember as 
context that amphibious forces have always assumed a hostile 
environment requiring that the force overcome opposition. A 
benign environment was not and is not assumed to be necessary 
for operations to take place. Moreover, the threats posed in 
A2/AD environments face all conventional forces. So aircraft 
carrier strike groups, tactical aviation flying from fixed air 
bases, large ground force elements: All of those are things 
that have to be overcome if they are going to operate in a 
place where the enemy is making a significant attempt to deny 
access. So solving some of those problems for the amphibious 
force also assist in solving problems for these other forces.
    Navy and Marine Corps, to their credit, understand the 
challenges and have acted to meet them. The Navy continues to 
develop and purchase amphibious ships and surface connectors. 
The Marine Corps is experiencing significant improvement in its 
aviation capability, which I would describe as being nearly 
revolutionary, with the introduction of the CH-53 Kilo, MV-22 
Osprey, with its many variants, and, in particular, the F-35B. 
Moreover, the joint force continues to seek ways to effectively 
operate in an environment in which sophisticated anti-access/
area denial capabilities exist and need to be neutralized.
    There are, however, places where shortfalls could impact 
the ability to conduct future amphibious operations and warrant 
either additional investment and/or changes in operational 
concepts.
    The top three of these are--I hope we can get into more 
detail on each of them--is, first, the Navy continues to face 
difficulty fielding systems that deal with the threat from 
mines laid at sea and in the surf zone. Mines are relatively 
easy to acquire and deploy, and in some ways, the challenges 
posed are more direct against the amphibious force than they 
are against most others. And while there are promising efforts 
for unmanned solutions, this remains a challenging area as it 
has historically.
    And the second issue is the Marine Corps continues to 
require the movement of amphibious assault vehicles as a lead 
element in an assault echelon. The legacy amphibious assault 
vehicles required that the ships close the beach to 1 to 3 
miles to allow a launch. And this was a movement that both 
exposed the amphibious ship to threats, but perhaps more 
importantly, it telegraphed the force movement in ways it could 
endanger the landing force.
    And the program replacements that Marine Corps are looking 
at are improvement in terms of range and speed, but the most 
fundamental issue here may be requiring these to be among the--
or may be in requiring this type of force to be among the first 
elements ashore during ship-to-shore movement. This may be more 
a matter of changing operational concept and doctrine than 
investment in new capabilities.
    And, finally, while Navy and Marine Corps will be making 
near revolutionary--or Navy and Marine Corps, in particular, 
will be making near revolutionary improvement in its aviation 
capabilities, and while some of these may, in fact, be a big 
part of the solution to some of the challenges we have noted, 
it is not clear that the aviation support platforms that Navy 
is delivering are optimized to take advantage of this 
improvement.
    For example, the Marine Corps insisted that the well deck 
capability that was absent from the LHA 6 and 7 amphibious 
assault ships be put back in LHA 8. And while this was 
understandable, this was done at the expense of aviation 
maintenance and ordnance storage capability, and ship options 
that allow more spots, more ordnance, more aviation fuels and 
stores probably should be looked at as we move into the next--
into further development of the force structure.
    Now, to conclude, amphibious operations have never been 
conceived as occurring absent a threat. Combatant commanders 
value these forces, and Navy and Marine Corps have significant 
and well-thought-out investment strategies to retain many 
capabilities. However, there are some significant challenges--
some of them are very longstanding--that require conditional or 
additional emphasis.
    And so, with that, I will conclude and stand by for 
questions.
    [The prepared statement of Dr. Martin can be found in the 
Appendix on page 29.]
    Mr. Wittman. Thank you, Dr. Martin.
    Mr. Sloman.

 STATEMENT OF JESSE SLOMAN, ANALYST, CENTER FOR STRATEGIC AND 
                     BUDGETARY ASSESSMENTS

    Mr. Sloman. Chairman Wittman, Ranking Member Courtney, and 
distinguished members of the committee, thank you for inviting 
me to testify today on the future of amphibious warfare in a 
contested environment.
    I wanted to make a few quick points regarding the current 
challenges the Navy and Marine Corps are facing and how they 
can overcome those challenges. The margin of superiority that 
the U.S. military can expect to enjoy on the battlefield has 
eroded over the last several decades as potential adversaries 
have developed new capabilities specifically intended to 
counter American strengths.
    Those capabilities mean that, in order to fully contribute 
to a campaign against a capable adversary, amphibious forces 
will need to adopt new concepts of operation and field new 
equipment or use existing equipment in novel ways.
    We also need to move beyond our bifurcated understanding of 
conducting amphibious operations whereby the Navy drives the 
Marines to the shore, then the Marines take over and execute a 
ground fight to one where we also acknowledge the contributions 
the Marine Corps can make to the Navy's fight for sea control. 
One of these new concepts is the use of expeditionary advanced 
bases. Advanced bases are small, temporary outposts that could 
constrain the enemy's freedom of action through anti-air or 
anti-ship attacks. For example, advanced bases positioned along 
island chains can employ anti-ship cruise missiles to form--
fired from mobile launchers to form a barrier to ships 
attempting to reach the open water.
    The Marine Corps should also expand the use of amphibious 
raids, a traditional Marine mission, to support sea control in 
littoral areas by attacking enemy anti-air and anti-ship 
missile batteries. And amphibious forces would be an important 
enabler for blockade operations because they would be able to 
contribute a large forwarding force as well as small craft to 
enable those forwardings.
    To execute these and other operations against future 
threats, the Navy and Marine Corps should prioritize six areas 
for investment.
    First, increase the armament of amphibious ships. 
Amphibious ships today contribute little to the strike capacity 
of U.S. naval forces beyond what is carried by their aircraft. 
The Navy should modify its small deck amphibious ships, so the 
LPD [amphibious transport dock] 17 and the follow-on LXR class, 
to include vertical launch systems so these platforms have a 
greater offensive and defensive capacity.
    Second, increase the size of the amphibious readiness group 
[ARG]. Today, the air element of a Marine expeditionary unit 
would be challenged to provide the volume of fires necessary to 
support the concepts described above. Adding more strike 
aircraft to the big deck ships in an ARG would displace rotary 
and platforms that are needed to allow the Marines to execute 
assault and airlift operations. Expanding the current three-
ship ARG to a four-ship formation that includes a third small 
deck amphibious ship would enable the Marines to field a force 
with more strike aircraft without sacrificing its airlift 
capacity.
    Third, expand the aviation capabilities of the amphibious 
assault ship. The LHA flight zero, LHA 6 and 7, sacrificed a 
well deck to increase their aviation capacity. The Navy and 
Marine Corps added a well deck back in for LHA flight 1 or LHAs 
8 and beyond, albeit at the loss of roughly half the vessel's 
aviation gas storage capacity.
    The only way that you can have a well deck and expanded 
aviation capacity in a ship is to have a bigger ship. One 
option is to lengthen the LHA flight 1 design, which would be 
similar to a course of action the Navy and Marine Corps 
examined in the mid-2000s for a ``plug plus'' variant of the 
LHD 8, which would lengthen the hull by about 80 feet and widen 
the flight deck by 10 feet. Eventually, the United States 
should consider developing a light aircraft carrier that 
potentially includes both a well deck and a catapult and 
arrested recovery system.
    Fourth, optimize surface connectors for ocean transit. 
Minimizing the on-land requirements for connectors would drive 
down costs while allowing the platforms to retain a high water 
speed, a characteristic that will be critical to their 
survivability. It would also drive us away from the problems we 
encountered with the expeditionary fighting vehicle where you 
try to have a high water speed and survivability on land, which 
means you end up with a surface connector that is suboptimal 
for driving on the ocean and a land vehicle that is suboptimal 
for operations on land.
    Fifth, the Marine Corps should acquire lighter vehicles. 
The Corps' ability to move forces ashore has been hampered by 
the steadily growing weight and size of its vehicles. To 
capitalize on the mobility of the V-22 Osprey, the Marines must 
continue to acquire vehicles and fire support systems small 
enough to fit aboard the Osprey. In addition, the Corps should 
prioritize modernizing and upgrading its existing light armored 
vehicles, which is the lightest armored vehicle in the Corps' 
inventory, and begin a new program to replace them with an 
entirely new vehicle that weighs the same amount or less.
    Lastly, the Corps should acquire cross-domain fires. The 
Marine Corps currently lacks the ability to influence the sea 
domain with its ground systems. The Corps should procure a 
multidomain weapon with an anti-ship and land-attack capability 
which can be fired by the Marine Corps HIMARS [high mobility 
artillery rocket system] launchers. The Corps should also 
acquire additional HIMARS launchers to supplement its two 
batteries of missile artillery--two battalions. Sorry.
    That concludes my prepared remarks. I look forward to your 
questions and want to thank you, again, for inviting me to 
speak here today. And go Jumbos.
    [The prepared statement of Mr. Sloman can be found in the 
Appendix on page 42.]
    Mr. Wittman. Thank you, Mr. Sloman.
    I am going to turn it to over to a Jumbo, to Mr. Courtney.
    Mr. Courtney. Thank you Mr. Chairman. And thank you to the 
witnesses. I am going to ask one question, and then that will 
be hopefully good for the break.
    To both of you, one distinguishing difference between the 
capabilities resident in a carrier air wing and that of the 
aviation combat element aboard a big deck amphib is E-2D. This 
capability allows the carrier to be fully networked with the 
rest of the strike group and thus leverage all of their 
capabilities.
    Are there ways, in your view, where the Navy could better 
integrate amphibs with other surface forces in order for them 
to better leverage capabilities like NIFC-CA [Navy integrated 
fire control], counter air?
    Mr. Sloman. Sure. You know, I think the Navy, as they look 
to a situation where the Marine Corps has F-35Bs and the Navy 
still has legacy fighters, has been potentially valuing some 
options for operating a carrier with all of the aviation 
enablers as well as its four-and-a-half, fourth-gen, fighters 
alongside a carrier or LHA operating in a carrier mode with 
fifth-gen fighters.
    I also think that if we provided the Marine aviation combat 
element with some sort of airborne early warning capability, 
that would significantly increase the survivability of the ARG/
MEU [amphibious ready group/Marine expeditionary unit] as well 
as just dramatically increase the offensive capability of those 
F-35Bs. And the lack of an AEW [airborne early warning] 
capability on amphibious ships has been a problem since the 
British executed the Falklands campaign without an airborne 
early warning asset and had trouble trying to do defensive 
counter-air against the Argentinian fighters.
    I think some potential options for doing that mission 
cheaper without an E-2D if you are operating ARG/MEU without a 
catapult could be putting some sort of less capable radar 
platform on an unmanned air vehicle, like the MUX, and that 
might get you some of the way there because you could get 
persistence in a platform that could stay aloft for a lot of 
time and still provide you with some sort of radar overwatch.
    Dr. Martin. The provision of airborne early warning is 
going to be absolutely essential for survival in the A2/AD 
environment. And the limitation right now is that--one of the 
major limitations, even with the F-35B for an ARG/MEU or even a 
larger amphibious force to operate would be the absence of 
that.
    There are a couple of different ways that could be handled. 
One is to--that the deployment concept will always--for which 
an ARG/MEU or an ATF [amphibious task force] would enter into a 
contested environment--would always involve a carrier strike 
group with an E-2 in the vicinity. That is one thing that can 
be done.
    Across the longer term, though, I think we are going to 
need to look at options that make it more organic to the force. 
And those could include developing different aircraft which 
carry an awful lot of expenses with them. The bill for 
developing a new aircraft that can do all of the things that 
you would like an E-2 to do can be quite large.
    Another possible option, which I think both organizations 
have looked at, is a possibility of building a bigger 
amphibious ship that can--has catapults and arresting gear that 
allows the provision of something like an E-2. Now, this isn't 
something we are going to do in the next 5 years, but it is 
something we can be working toward as we--as we assess future 
force structure.
    Mr. Courtney. I yield back.
    Mr. Wittman. Thank you, Mr. Courtney. We do have time for 
additional questions.
    Dr. Abraham.
    Dr. Abraham. No, I am good.
    Mr. Wittman. You are good? Okay.
    Mr. DesJarlais, I think he has stepped out.
    Mr. Byrne. We are going down through the list, so----
    Mr. Byrne. I thank the gentlemen. I appreciate your 
testimony.
    Back in 2014, the Deputy Commandant for the Marine Corps--I 
am sorry.
    We lectured you on using the microphone, now we have to 
lecture ourselves.
    Back in 2014, the Deputy Commandant for the Marine Corps 
said that the Marine Corps will be looking to, quote, ``exploit 
the gaps and seams in future amphibious operations.''
    So are we still talking about pitting force on force in a 
contested landing given that that was what he said back in 
2014?
    Dr. Martin. I would say that the future employment of 
amphibious forces is going to be maneuver-based and is going to 
involve the use of intelligence and mobility to take advantage 
of the gaps and the seams. And that is the future that the 
Marine Corps ought to be thinking about, the Navy and Marine 
Corps need to be thinking about.
    Part of the challenge, however, is, as long as we are 
married to the idea of amphibious assault vehicles being the 
first thing across the beach, you are pretty much in a force-
on-force engagement to begin with. So that is the type of 
capability we would probably want to maintain, but it is 
probably important to rethink the concept such that there is 
more reliance on the inherent value of mobility, agility, 
speed, hitting them where they ain't.
    Mr. Byrne. Well, if the future of ship-to-shore connectors 
are more than likely going to be conducted in a benign 
environment or during an exploited gap enabled by local sea 
control and air dominance provided by the Navy and Air Force, 
is it wise, in a constrained budget environment, to increase 
the cost of these connectors by adding requirements for 
contested environments we won't be sending them into?
    Dr. Martin. The connectors themselves need to be capable of 
moving around a lot. I mean, connectors apply to both the 
aviation and to the surface connectors.
    Mr. Byrne. Right.
    Dr. Martin. And the requirements that we are talking about 
adding aren't necessarily things that are going to add a lot to 
the cost. I mean, what we are trying to do is--say, the MV-22, 
for example, is a connector; H-53 Kilo is a connector. Both of 
those things are part of the program of record and are going to 
be delivered. And, really, part of the challenge is how to 
better exploit the capabilities that they provide.
    I can certainly see an argument that says that an 
amphibious assault connector that is launched from a ship is 
maybe not your better investment. I think we both would agree 
with that. I would agree with that.
    Mr. Sloman. Yes, sir. I agree with Dr. Martin. And I would 
add I think that even if you had a connector that had some--you 
know, some amount of survivability in an environment where you 
are doing an imposed landing, the ship would have to be so 
close to shore that you would create, you know, just tremendous 
risk for a capital ship.
    So I think the Marine Corps has been trying for decades to 
use range and maneuver, you know, on the sea side to try and 
find those gaps and seams. I think there is great potential 
here for unmanned systems. So the Marine Corps just completed 
an experimentation exercise called ANTX [advanced naval 
technology exercise] out in the west coast recently, and they 
have looked at concepts for using Navy small unmanned surface 
vehicles to be part of the first wave of some sort of landing 
against a concentration of enemy forces if you have to do that. 
That might help bring down the risk for platforms that carry 
people and also because using unmanned systems maybe can reduce 
the costs of those. But I think it is--you know, I think the 
Marine Corps today would be certainly challenged to execute an 
imposed landing against modern threats.
    And the Marine Corps has been--would have been challenged 
for quite some time. And it is not just the connectors. Some of 
it is the loss of naval gunfire support, for example. You know, 
if you look at the amount of naval gunfire support you could 
use to prep a beach today versus in, like, the 1940s, it is a 
tremendous delta there.
    Mr. Byrne. Well, I wonder if it would make some sense to 
focus on more flexible, agile, and fast connectors to move our 
Marines to shore swiftly such as the expeditionary fast 
transport ships we already have. Would those make sense?
    Dr. Martin. The expeditionary fast transport ship is 
certainly a very valuable capability. One of the things about 
flexibility and agility, though, is not so much with the 
connectors but with the platforms themselves. They need to be 
able to provide at least--the amphibious platforms need to be 
able to provide some level of self-defense capability. And that 
would be--that is, really, what distinguishes an amphib from 
something that is, you know, has a ``T'' in front of it. That 
is going to be part of being able to move into certain places, 
and it is part of the risk assessment about how close a force 
could afford to get.
    But, in general, the presumption that we need to be looking 
more at maneuver and flexibility and the lightness is exactly 
the right way to go. And the idea that we are going to be able 
to knock down the door with something is probably not the way 
to go.
    Mr. Byrne. Well, if you listen to what the Deputy 
Commandant was saying, he is saying, let's go to the places 
where we don't have to knock down the door.
    Dr. Martin. Exactly.
    Mr. Byrne. So, if we are not having to knock down the door, 
we can take something that is lighter, faster, more agile, get 
in there, get out, and get it done cheaper. That is my only 
point there.
    Does that make sense?
    Dr. Martin. I think we are in violent agreement.
    Mr. Byrne. Good. Thank you. I yield back.
    Mr. Wittman. Thank you, Mr. Byrne.
    We are going to take a quick recess. We should be back 
right around the 4 o'clock timeframe. So I urge our members to 
come back. I know there are lots of questions that are needed 
to be asked. So we will ask our witnesses if they will stay 
with us, and we will recess. Two votes. And we will recess. We 
should be back in the 4 o'clock timeframe.
    [Recess.]
    Mr. Wittman. We will reconvene the Seapower Subcommittee.
    And now we go to Ms. Bordallo for the next set of 
questions.
    Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. And thank 
you, gentlemen, for being at the hearing today.
    This, I guess, whichever one of you would like to answer: 
The latest Marine Corps operating concept outlines the desire 
to see a second amphibious ready group in the Pacific by 2018.
    Now, we understand that that relies on variables, such as 
funding and vessel availability, but in your view, what 
capability would a second ARG provide for the Marine Corps, and 
what resourcing or logistical challenges would need to be 
prioritized?
    Dr. Martin. A second amphibious ready group would be quite 
valuable in enabling theater security cooperation. Marine 
forces, amphibious ready groups, and Marine expeditionary units 
are extremely useful for exercises, for working with regional 
allies. It would also reduce the reaction time for certain 
types of contingencies. So, in fact, that would be, in my view, 
a very good use of the force.
    The sourcing challenges would be largely a matter of force 
structure. As far as the Navy's ARGs go, it probably would not 
be as big a deal because it--effectively, we would be moving 
something out of the continental United States and putting it 
somewhere in the Western Pacific and having it be there. With 
the Marine expeditionary unit, it would likely be partly 
composed of a rotational force and partly composed of people 
who are stationed there permanently, just like we have now in 
Okinawa now.
    But in terms of sourcing, in terms of support, typically, 
this is done with an agreement with the host nation, and it is 
typically a mutually beneficial type of relationship, which, in 
my view, would be something very much worth pursuing.
    So Pacific Command's desire to do this seems to me very 
consistent with what would be in the best interest of the 
Nation.
    Ms. Bordallo. Thank you. Thank you, Dr. Martin.
    Mr. Sloman. I would also add, more broadly, you know, one 
of the recommendations I reported was to add a fourth ship to 
the ARG. And, obviously, that is a heavy lift in terms of 
shipbuilding and, you know, actually building enough ships to 
achieve that requirement. So you may not be able to do that 
with all of your ARGs.
    But one way you can get more presence from a fewer number 
of ships to the same number of ships is to put more of them 
forward. They can rotationally deploy faster. They don't have 
to transit all the way from the west coast or the east coast.
    So, when we look at potential posture options that go along 
with some of those recommendations, and this also feeds into 
the fleet architecture study that CSBA [Center for Strategic 
and Budgetary Assessments] recently completed for the Navy, a 
large part of that is posturing more ships forward to enable 
them to have a higher presence.
    Ms. Bordallo. Well, thank you. Thank you, gentlemen.
    Both of you identified the challenges of sea-based mines, 
particularly for amphibious operations.
    Dr. Martin, you referred to the challenges associated with 
legacy systems and opportunities specifically with unmanned and 
underwater systems.
    Now, I echo your concern regarding the very real and unique 
A2/AD threat of mines and would be interested to hear your 
perspective on what the Navy should be doing to strengthen its 
mine countermeasure toolbox.
    Dr. Martin. There are a number of things the Navy should be 
considering as it moves forward with the mine countermeasures 
problem. One is unmanned is the future of mine countermeasures, 
and we need to be moving out of the legacy systems that are 
manned and require exposure of personnel to the threat as they 
attempt to clear things.
    I think one of the big challenges is that the very shallow 
water has been a place that has historically been a real 
challenge. And the types of things that would help us there 
would be improved unmanned aerial systems to allow better 
battlespace awareness of what is going on, the fact that people 
are laying mines. Other parts of it would be unmanned systems 
that could be put into very shallow water and can track the, 
assist in mine hunting and assist in neutralization. And in 
addition, I think this has got to be coupled with some changes 
to the operational concept such that you are not--that the 
landing force is not necessarily always going where--it can go 
other places. That is part of strengthening the aviation 
capability.
    Ms. Bordallo. Thank you. Thank you very much.
    And, Mr. Chairman, I yield back.
    Mr. Wittman. Thank you, Ms. Bordallo.
    We will now go to Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman.
    I thank both of you for your extremely thoughtful testimony 
in joining us in what is a critical conversation.
    Mr. Sloman, it is always good to meet another Marine 
intelligence officer. Every day on the Hill, I endure some joke 
about whether Marine intelligence is an oxymoron. So your 
thoughtful testimony is helping to prove that it isn't, and I 
appreciate that very much.
    And you mentioned something about the ANTX exercise, if I 
am getting that right. And I would like to dig into that a 
little bit, because when it comes to this conversation about 
our Navy/Marine Corps team operating in a contested 
environment, my concern is we are sort of always on the wrong 
side of the cost curve at every step.
    And from our amphibs to our aircraft, our rotary-wing 
assets to our sea-based connectors, it seems like our 
adversaries are always able to target that equipment at a lower 
cost than we are able to protect them.
    And I appreciate that we can--it seems like we can achieve 
some cost savings in the requirements process, such as 
minimizing on-land requirements for connectors, but I am afraid 
that this bigger picture remains: The relative cost of our 
systems and the high value we rightly place on survivability 
may make political leadership less likely to deploy them in a 
risky expeditionary environment.
    So, on the subject of a greater role for unmanned systems, 
which may be a way of getting on the right side of that cost 
curve, could both of you just comment on, if we were going to 
invest heavily in that approach, what would that look like? How 
would we change how we are operating?
    Mr. Sloman. So, specifically with reference to the ANTX 
exercise, I think one of the two most potentially fruitful 
areas for using those unmanned systems would be the counter 
mine mission, you know, so--or sort of a beach reconnaissance 
role: so having small unmanned vehicles that could operate well 
forward of the manned assets to really determine what the, sort 
of, picture of defenses are at whatever beach you are landing 
at and especially mines and then, also, potentially as a host 
for the sort of fires that you would need as you close to the 
beach. The Marine Corps kind of has this problematic gap where 
you have a lot of fires potentially resident on your platform, 
your capital ships that you are launching ships from, 
especially if you add a VLS [vertical launch system] 
capability, like we proposed. And then you potentially have a 
lot of fires once you kind of establish your forces ashore and 
you can put your artillery in place and also use air support. 
But as the forces are transiting to the beach, they don't 
really have right now any fires capability. This is something 
you had in World War II and subsequent, but we have sort of 
lost in the force.
    So having small unmanned vehicles that had fires that could 
provide fire support for forces as they are doing that long 
transit from wherever they left the capital ship to where they 
are landing I think is a potentially very useful job for the 
unmanned vehicles.
    Dr. Martin. I agree completely with what Mr. Sloman just 
said.
    I would add that the ability to establish wide area 
battlespace surveillance is an important feature of being able 
to operate in this type of environment. Unmanned aerial 
vehicles that are organic to both the ARG and the MEU would be 
helpful in that respect. Also, the whole capability of doing 
beach surveillance from unmanned system would be--is another 
important feature.
    And the last thing is it--we talk--I talked earlier about 
the issue with surf zone mining. And that may be a particular 
area where we have to look at specialized types of unmanned 
vehicles that may be expendable that we are effectively using 
to neutralize the broad range of mines that have been laid in 
the surf zone and are going to be difficult to deal with in any 
other way. And, right now, effectively, the only way we have 
got to deal with it is blow them up or send somebody in to 
countermine or whatever. And unmanned systems are probably 
going to be very effective in that area.
    Mr. Gallagher. And, Mr. Sloman, I would just be interested. 
As a Marine intel officer, do you think--are we doing a good 
job in that community thinking creatively about the future 
threat environment and really challenging the assumption upon 
which our amphibious doctrine is based? I mean, it has been my 
experience, laying my cards out there, that we sort of 
prioritize the short-term thinking over that real long-range 
analysis. I just would be interested in your thoughts, given 
your experience.
    Mr. Sloman. Yes. I completely agree. You know, I mean, as 
you have experienced, sir, when you are in a billet or you are 
in the aligned unit, you are worried about the next exercise, 
which usually is about some very near-term threat, or you are 
going off and doing some sort of kind of narrowly scoped 
operational problem. I don't know how many Marine officers get 
the freedom to think, you know, about those mid- to long-term 
threats.
    And then I also am concerned if the Marines start spending 
more time and sending more personnel to do the kind of GWOT 
[global war on terrorism] type missions that, you know, may be 
ascendant, we might run--end up in a situation like we have for 
the past decade where we really become like a second land army 
or the Marine Corps really becomes a second land army, 
executing mostly counterinsurgency, counterterrorism type 
missions and, again, sort of that amphibious knowledge base 
kind of starts to drop out of the force.
    Mr. Gallagher. Sure. Thank you both.
    I yield.
    Mr. Wittman. Thank you, Mr. Gallagher.
    We will now go to Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chair.
    One of the most interesting part about the amphibious 
operations is, as it was described once, about the image that 
we all have is World War II and the wave and wave of amphibious 
vessels. I tell people: Imagine the opening scene of ``Saving 
Private Ryan'' and that is the image that most of us have.
    But we also realize that that is not the way we are going 
to, quote, ``fight'' in the future. It is just not part of it.
    Dr. Martin is concerned about A2/AD. I represent Hawaii. 
Believe me: We are very familiar with it, and we are also very 
concerned. I am not sure that the amphibious vessels are the 
way you counteract A2/AD. And then, as well, the whole issue 
that we were discussing earlier, which is the role of the 
unmanned. As we know with the FSA [fleet size assessment], 
which was done, which the fleet size assessment with 
Secretary--former Secretary Mabus' 355 and everyone else, and I 
think your organization, Mr. Sloman, had a large number of 
unmanned.
    So, given what you are describing as you see potentially as 
the role of the amphibious vessel, why do you not think that 
you are actually moving towards a recommendation towards 
unmanned versus on an increase in amphibious vessels with 
Marines? Right now, we are, what, 10 vessels, 6,000 Marines 
that are being deployed in any one day. So why do you not think 
that that is not the way that the future is? Because it seems 
like we have got to think about the future. What is the 
effective way to do this battle? Whichever one of you wants to 
start.
    Dr. Martin. Well, obviously, Mr. Sloman has some thoughts 
on this too. But I will start by saying, I would agree that 
amphibious vessels in and of themselves are not the things that 
are going to overcome an A2/AD environment. They are something 
that we have to--we, the Nation--would have to address, the 
military would have to address, to enable the use of that type 
of capability. That type of capability is useful in achieving 
certain types of effects, but my argument is that we should 
consider the ability to carry out those types of effects as 
being useful and find ways to enable them and use aspects of 
the amphibious force to allow that to happen.
    Countering A2/AD is going to involve a large component of 
unmanned vessels that are unmanned capabilities. That is a 
place we should be investing. I think that the major capability 
enhancements that we are talking about for the amphibious force 
largely deal with ways to exploit the potential capability of 
the manned and also to exploit the inherent value of mobility 
and scalability. So those are the things that the amphibious 
force will continue to bring with us even as we move into the 
other areas where challenges still exist.
    Mr. Sloman. Specifically on the unmanned systems. I mean, 
obviously, those have a role to play in this A2/AD environment. 
I think we are at different levels of maturity with respect to 
integrating those in the force. So I think unmanned air 
systems, we have a lot of experience with, and there are some 
technical reasons that we were just--it is easier to use those.
    I think--and in the CSBA for the architecture study, we 
were somewhat conservative, actually, about our use of unmanned 
surface vehicles and even unmanned undersea vehicles, partly 
because there are a lot of technical and policy challenges that 
we have to work out, and I think we are not 100 percent certain 
exactly the maximum extent that we can use those systems.
    So, for example, from a policy standpoint, how willing are 
you to put munitions on those systems? How willing are you to 
grant--or how much autonomy could you potentially grant an 
unmanned system if you expect to be operating in an anti-
access/area denial environment where your communications will 
be disrupted and you may not be able to communicate that easily 
with your unmanned systems? Do you mind if the enemy takes them 
if it is an unmanned surface vehicle and it is operating at 
peacetime? Theoretically, someone could just grab it, which has 
happened in real life. You know, we don't have good norms for 
protecting our unmanned vehicles right now.
    So, you know, we opted to be a little bit conservative, and 
I think we still have to work through those challenges.
    Ms. Hanabusa. I am running out of time, but I just would 
like to ask you to consider this: I believe that we set policy 
by acquisition. So, as we talk about the balance here, when we 
buy an amphibious vessel, it could be a lot of money versus an 
unmanned.
    So that is the tradeoff that we, I think, have to decide on 
this particular area as to who better serves it with the 
limited resources that we have.
    Thank you, Mr. Chair. And I yield back.
    Mr. Wittman. Thank you, Ms. Hanabusa.
    We will now go to Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    And if you already answered this, please tell me, and I 
will ask the staff what the answer was.
    It is a really simple question, though. Where could you do 
a contested amphibious landing right now? Tell me, and 
obviously, the countries that are peer competitors and also 
nonpeer competitors, tell me, where could you actually do it 
at?
    Dr. Martin. There are a number of places you could do it 
without getting into the actual plans. Anyplace that offers a 
littoral type of----
    Mr. Hunter. China has got littoral type of stuff. You 
couldn't do China.
    Dr. Martin. You couldn't do China without a whole lot of 
prior preparation. There are places.
    Mr. Hunter. I think that is arguable, but----
    Dr. Martin. Yeah. There are places that--I don't know that 
we would do China. There are places where it could be done 
with--it could be done with an adequate amount of prior 
preparation, prior dominance, and all the rest of it.
    I would say that the areas that are most susceptible to it 
would be the places where there is a moderate level of A2/AD 
capability, which we are capable of overcoming. It would be 
places where there is some strategic advantage to gaining parts 
of the coast or gaining an island, and it would be places where 
it would be valuable to have a level of force that might not be 
the same as an outright major contingency operation but would 
be in the nature of a limited type of response.
    So there are--off the top of my head, I could think of many 
places where that could be done and could be done in an 
incredible way. I am a little reluctant to name specific 
places.
    Mr. Hunter. Let me ask it this way: So let's look out 15 or 
20 years, right, when everybody, when even nonpeer competitors 
have ballistic missiles to be able to shoot at ships, do you 
think amphibious warfare may be going away? You are never going 
to have a ``Saving Private Ryan'' or Iwo Jima again. You are 
never going to have that because you are not going to make it 
to shore, ever.
    Dr. Martin. No, you wouldn't do ``Saving Private Ryan'' 
because it involves putting the ships so close to shore that 
they would be vulnerable to a number of different things.
    Mr. Hunter [continuing]. You would have to have the ships 
close to shore by definition, right?
    Dr. Martin. Well, part of the discussion we are having is 
the ability to move around and stay out of range and provide 
deception and provide surveillance and to attack the seams. So, 
in a case where you--I can foresee a situation in 15 or 20 
years where we have established sufficient dominance in a 
particular part of the operating area that we would want to be 
able to move forces other than aircraft, for example, where we 
would want to be able to move forces into an area to achieve 
some effects.
    Mr. Hunter. But that wouldn't be a contested amphibious 
assault. That would be an amphibious landing where you already 
have dominance, where you have air dominance and so forth, and 
you are not going to get hit with a cruise missile 500 miles 
offshore.
    Dr. Martin. Well, probably not that far. But it would be an 
amphibious operation in an environment where you had to--you 
had to figure out ways to counter the threat before carrying 
out the operation, and that is part of it. And I can think of 
many places where that could occur. And I guess and what I 
would also emphasize is that this is not something that only 
amphibious forces would have to deal with. Any conventional 
force is going to have to be able to overcome some portion of 
the A2/AD threat in order to be able to carry out any 
operation.
    And that is--and part of the balance between offense and 
defense is something that is just part of the threat assessment 
that we continually have to make. So I would--so, anyway----
    Mr. Sloman. Sir, just real quick. I would offer that if you 
can get the ships far enough offshore, so maybe 200 miles, for 
example, against a competitor that doesn't have huge stores of 
precision weapons, you may be able to thin the salvo, the 
offensive salvo, from their end to the point that you could 
potentially defend against that or at least you would reduce 
the amount of weapons you might face to a pretty small number, 
depending on your adversary's inventories.
    And then I would also offer, with respect to China, it is 
difficult, very different, certainly, to imagine landing on the 
shores of mainland China, but I think there is a great 
potential for using amphibious capabilities in some of the 
claimed islands, for example. I could see a scenario where you 
might want to put forces there or to regain control of some 
disputed territories after they have been seized by an 
opponent.
    Mr. Hunter. Thank you. I just feel like, in some ways, we 
are in an amphibious box. I was a Marine too. And I did three 
tours, and I flew over all three times. I have never been on a 
ship for more than 3 days in the Gulf. But I think we kind of--
we might put ourselves in an amphibious box where we assume 
that it is still going to be relevant in 20 years when it might 
not be.
    Thank you.
    Dr. Martin. Yeah. There is that possibility. At the same 
time, by that chain of reasoning, there is a whole bunch of 
things we couldn't do in 20 years. We wouldn't be able to fly 
out of--PACAIR [Pacific Air Forces] out of fixed bases in the 
Philippines. And there are ways to offset advantages, and part 
of the--rather than taking the step of saying it is irrelevant, 
part of the step we need to take is to figure out ways that, 
given that we think parts of it are useful, are there ways that 
it could be made?
    Mr. Hunter. Thank you. Thank you, Mr. Chairman.
    I yield back.
    Mr. Wittman. Thank you, Mr. Hunter.
    We will now go to Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you. I am sorry. I wasn't able to hear the 
remarks prior to the vote. But I had a few questions. They may 
have been asked.
    One of the things that we are talking about here--and 
certainly, my colleague from San Diego in asking those 
questions--is part of it, you know, what does the future look 
like, and are the plans that we have today realistic or in some 
cases unrealistic?
    And if you could put that in the framework of I think you 
may have mentioned on shipbuilding, you were--someone asked 
that question, and the integration with more forward operations 
versus not, and so what--you know, what is the proposed number 
of ships that support our amphibious operations as appropriate 
or not?
    And then, when it comes to aviation, aviation readiness 
shortfalls in the Navy and Marine Corps, how do they affect, 
again, amphibious operations?
    And, finally, the expeditionary support bases and advanced 
bases, how are they incorporated into the future of amphibious 
operations? If you could kind of go through that in a way that 
is a little specific for us, that would be helpful.
    And if I could throw in one more thing. So, as we are 
talking about the updates to our connectors and--do we have 
gaps in training around new technology that are problematic? 
And how are we addressing those going forward?
    Mr. Sloman. Yes, ma'am.
    Mrs. Davis. And I am sorry if you have already addressed 
this in great detail.
    Mr. Sloman. We have not.
    So CSBA recommended in our fleet architecture study in 
response to an NDAA that we go from 16 small deck amphibs to be 
procured over the next 30 years to 25 small deck amphibs 
procured over the next 30 years. And we determined that that 
would be about a 4 percent increase on average in the Navy 
shipbuilding budget. That is averaged out over the entire 30-
year period. So it might be more, significantly more, in the 
first 10 years, for example, depending on the rate at which you 
want to procure those ships.
    And there are some things that you can do to bring the cost 
down a little bit of procuring extra small deck amphibs, like 
potentially speeding the procurement of the LXR, for example, 
the LPD 17 replacement.
    With respect to advanced bases, I think the rationale for 
arguing for advanced bases partly has to do with some of the 
questions that the members have directed to us with reference 
to the cost-exchange balance. When you look at these A2/AD 
situations, our argument for using advanced bases or for 
creating some capability to put Marine units ashore that can 
implement the sea and air domains, is that that helps reverse 
the cost-exchange ratio. So our potential adversaries have 
tailored their capabilities to try and disrupt what is 
traditionally seen as our strengths. So carrier-based aircraft, 
short-range tactical fighters at large bases, surface vessels. 
Expeditionary advanced bases would create a mobile capability, 
certainly, for the bases close to an opponent to fire any ship 
or any air weapons that would force them to try and seek out 
smaller ground forces with low signatures that are relatively 
cheap.
    This is the problem the U.S. has frequently encountered in 
our wars. You know, if you look at the Scud hunts in 1991, 
trying to find out these mobile launchers, very difficult 
problem. Trying to find mobile ground forces in Kosovo in 1999, 
extremely difficult problem.
    We have never exactly solved the problem of how to find 
mobile transporter erector launchers that are driving about 
with very low signatures. And so creating--even if your 
offensive capacity isn't that high, but creating that threat 
that the enemy has to honor and potentially divert some of 
their spending towards and some of their military asset towards 
I think is one potential way to help try to flip that cost-
exchange ratio and give them almost a mini A2/AD problem to 
help try and combat within their near abroad.
    Mrs. Davis. And on the training, just going back for a 
second in terms of the shipbuilding, because we are also 
talking about the number of ships that support the operations, 
amphibious operations.
    Mr. Sloman. Right.
    Mrs. Davis. How comfortable do you feel we are moving ahead 
with that? And where does it not connect in the sense of the 
plans and what we would like to see are really out of whack 
right now?
    Dr. Martin. We don't meet 2.5 MEB [Marine expeditionary 
brigade] lift.
    Mr. Sloman. Certainly.
    Dr. Martin. If the requirement is for 2.5 MEB lift, we are 
not going to be anywhere close. It is also true that every time 
you add an amphibious ready group and you project it to operate 
it in a contested environment, there will be surface ships that 
go with it, and all the services--Marine Corps has got a 
problem with aviation readiness, and Navy has got a problem 
with ship readiness. All of those things have to be addressed.
    One of the problems with trying to greatly expand the size 
of the force would be it is not just the initial cost; it is 
the subsequent readiness costs that go along with this. So we 
would have to--the Nation--not we, but the Nation would have to 
consider all those things as it made a decision to seek a 
particular type of capability.
    Mrs. Davis. Do you think we do that very well?
    Dr. Martin. I think the Nation and the services 
occasionally do not take into account the long-term cost of 
operating a force and, as a result, can make some investment 
decisions that become questionable over time.
    Mrs. Davis. Okay. Thank you. I think my time is up. Sorry. 
Thank you.
    Mr. Wittman. Thank you, Mrs. Davis. We appreciate that.
    Gentlemen, I want to get your perspective on what we see 
today as the mix of capabilities within the amphibious force. 
We have connectors. About two-thirds of our connectors are to 
move amphibious forces ashore, and the other element is the 
aviation element that also moves the remainder of forces.
    It has been suggested that we look at that ratio, and is 
that ratio correct today, the two-thirds to one-third 
connectors versus aviation? And those surface connectors--I 
think, you know, as we look at modernizing the surface 
connectors, that certainly is a situation.
    Let me get your perspective. Do you think the current ratio 
is correct? And if not, what should be the ratio? And then, 
what would that new ratio mean for our legacy forces today, and 
what would a future Marine force look like with a different 
ratio of surface connectors to aviation assets?
    Dr. Martin. As I said in my opening statement, the Marine 
Corps is facing an explosion of improvement in capability in 
aviation capabilities it has got, and it would be wise for the 
Marine Corps to exploit that to a greater degree.
    What that implies is that more of the force gets moved 
ashore by aviation; less of the force gets moved to shore by 
surface. And the challenge that that would impose is that some 
of the things that the Marine Corps is used to requiring as 
part of the landing force would not get there as quickly as it 
might otherwise. And a lot of the fire support, for example, 
would be more dependent on aviation fire support than it would 
be that they--the tanks and armor, that type of thing, get 
moved ashore by surface.
    So, across the long term, the need to reexamine concepts 
that depend heavily on armored forces moved by surface 
connectors needs to be reevaluated, and that will affect--
doesn't really affect the Marine Corps aviation program of 
record all that much. What it does affect is some of the Marine 
Corps' thinking about its capabilities. It also affects--and 
doctrine, it also affects some of what would go into the 
amphibious shipping, what they are going to be optimized to 
carry.
    Mr. Wittman. Mr. Sloman.
    Mr. Sloman. Yes. I think the biggest factor that would 
affect that ratio, you know, if you sort of look at it from 
what do you need on the beach and what do you need to have 
ashore to fight and then you sort of backtrack it, think about 
what connectors can get that there, the biggest limitation 
right now is the vehicle weight problem. So there is really not 
that much the Marines can bring ashore just by air, which 
creates a challenge if you are a beachmaster trying to figure 
out what your amphibious loading plan is.
    I think that if you can drive down the vehicle weight 
without sacrificing too much survivability--and we recommend 
acquiring lighter vehicles--then your aviation lift becomes 
much more useful and you can bring a larger percentage of the 
force ashore.
    And in the long term, I think it is important to move--or 
to try and move beyond this paradigm where more survivability 
necessarily equates to more weight. There are some DARPA 
[Defense Advanced Research Projects Agency] programs that are 
looking at ways that you could potentially have survivable 
ground vehicles that leverage agility or leverage active and 
passive defenses in addition to heavy armor.
    But if every vehicle that you try to make more survivable 
becomes exponentially heavier, you really run into a big 
challenge trying to bring them ashore by aircraft. So then you 
have to go to surface connectors, which may reduce the 
vulnerability in the vehicles, because they have all this 
armor, but it dramatically increases their vulnerability during 
the ship-to-shore transit stage.
    Dr. Martin. Absolutely.
    Mr. Wittman. Very good.
    Mr. Sloman, let me ask this: Mr. Hunter talked about what 
the future environment will look like, and much of this is a 
discussion about Marine Corps' capabilities, both in a benign 
environment and a contested environment, and that obviously is 
going to change as we look at it into the future.
    Can you explain how the Marine Corps' approach to 
amphibious warfare in a benign environment and in a contested 
environment would be different? And is there a range at which 
you would project forces in a benign environment that may be 
different than what you would in a contested environment? So 
just kind of give us your range.
    We had talked about the contested environment, but you also 
alluded to the ability to prosecute the seams or to find areas 
where it is less contested or even a benign environment. Then 
you have logistical issues about being able to move forces 
distances to the objectives.
    So give us your perspective because I would like you to 
dive a little bit deeper into that realm of what was asked 
earlier just so we understand the benign versus contested 
environment in amphibious warfare capability.
    Mr. Sloman. So I think one challenge when you look at a 
potentially benign environment is the proliferation of anti-
ship cruise missiles with non-state actors. So environments 
that, maybe 20 or 30 years ago, we assumed were benign or at 
least benign for a ship that was stood off maybe 10 or 15 miles 
from the coast may no longer be benign, and we might not even 
know that it is not benign. In other words, a non-state actor 
might have some sort of weapon system that could target our 
capital ships. The Houthi attack on U.S. guided missile 
destroyers and then also the Saudi or United Arab Emirates' 
joint high-speed vessel, you know, brings that to mind.
    I think in a truly benign environment or one where we can 
be assured that there would be no anti-ship missile threat 
within tens of miles of the coast, we would be able to bring in 
our maritime prepositioning force [MPF] sealift capability, and 
that would very much increase the--or decrease the offload time 
required to put significant forces ashore. Having a defensible 
port facility is hugely valuable if you are trying to move 
heavy equipment off of the ship. But I think it is important 
not to assume that that MPF shipping, so essentially civilian 
shipping, can be used in even a mildly contested environment, 
particularly close to shore.
    And the Marine Corps and the Navy seemed to be moving a 
little bit in that direction kind of in the 2000s with some of 
the discussion about sea basing. I think that was a dangerous 
direction to go, to assume that your MPF shipping would be part 
and parcel of an amphibious force against even any enemy that 
had the capability to reach out and hit ships at 10 to 20 miles 
from the shore.
    So I think we should acknowledge upfront that the MPF 
shipping is not a substitute for amphibious shipping, and it 
really can only be used if you assume that there is no threat 
at all from an anti-ship cruise missile armed adversary.
    Mr. Wittman. Very good.
    Dr. Martin.
    Dr. Martin. The important thing is not so much the distance 
as the ability to not telegraph location, which may 
occasionally be a matter of deception that puts the force in 
range of anti-ship cruise missiles or the anti-access threat.
    So the future probably doesn't mean that we should be--that 
the Nation, the Navy, the Marine Corps--should be developing 
long-range connectors that are supposed to move things hundreds 
of miles. It is more in the nature of locating ways of masking 
the movement, of finding ways to better understand what the 
adversary is doing, finding ways of suppressing aspects of the 
A2/AD network long enough to allow some significant part of the 
operation. And that will involve a fairly highly mobile and 
sophisticated effort that relies a lot on sensors, that relies 
a lot on intelligence fusion, and relies a lot on the ability 
to make the enemy fire the anti-access weapons into open ocean. 
But trying to construct a situation where it is all range 
based, it will never work. Range can always get increased.
    As far as the general ability to operate in a close to 
shore, not everybody is going to have an A2/AD capability 
equivalent to what the Chinese or the Russians would be putting 
out. There are lots of places where the contested environment 
is such that it can be handled with less risk to the force. And 
the way to be able to operate in those types of environments is 
to accurately assess the threat and provide sufficient organic 
capability for the landing force and for the amphibious force 
to be able to operate in a fairly--in a more limited way.
    And we have talked about a couple of other things that 
would involve. Some of it is better unmanned surveillance 
sensors. Some of it is possibly being able to organically 
assign airborne warning. There are a lot of different things 
that could enable that.
    Mr. Wittman. Thank you.
    Mr. Sloman, I wanted to pick up on the point that you made 
about weight of combat capability being moved to shore. And I 
want to ask you specifically about the Marine Corps' effort to 
recapitalize the amphibious assault vehicle [AAV] through the 
development of the amphibious combat vehicle [ACV] program, 
looking at that transition. As you know, part of that is doing 
a service life extension on AAVs, which is a 50-year-old 
vehicle and then building new ACVs. So, in the effort to 
recapitalize this legacy program, how does that fit into what 
you look into the future about the forcible entry component of 
an amphibious force? Do you see that direction in the 
recapitalization of legacy programs there and what you bring up 
about a weight and capability? Give us your perspective on how 
that fits into where things need to be in the future.
    Mr. Sloman. Yes, sir. I think the Marine Corps is moving in 
the right direction with having a replacement for the AAV have 
not a significant swim requirement. I think trying to build 
another EFV [expeditionary fighting vehicle] is the wrong road. 
You know, that creates significant engineering risk, very 
expensive vehicle, and one that just seems unlikely to be 
fielded anytime soon.
    I am not sure that the ACV--the ACV is large compared to 
other equivalent types of ground vehicles, and it perhaps is 
underarmed relative to the threat. I think having a larger 
weapon on it would be--would be a very useful capability. But I 
think that generally having a vehicle optimized for the ground 
with minimal swim capability that would be brought close to 
shore by a connector and then disgorged is definitely the right 
direction for the Marine Corps to go rather than have a gold-
plated, fantastically swimmable ground vehicle.
    Mr. Wittman. Got you. Very good.
    Dr. Martin, your perspective?
    Dr. Martin. What this involves is the backing away from the 
idea that the first thing across the beach is going to be 
motorized as a mechanized inventory. And what that means is 
that the first parts of the assault element are going to be 
likely delivered by air and that these capabilities are going 
to be only delivered after some part of the beach is made 
secure enough that they can move this type of force over the 
beach.
    If that were to occur, I am not absolutely certain that 
that would be the first thing to arrive. The first thing to 
arrive might very well be some other portion of the Marine 
landing force that is viewed as being more effective and 
useful.
    So I think the major thing that we would like to have from 
this type of vehicle would be suitability as an infantry ashore 
weapon and not at all really an amphibious vehicle. There is 
really not a lot of value in having that capability, which I 
think is pretty much what we both--we both agree on that point.
    Mr. Wittman. Very good. Thank you.
    Mr. Byrne, do you have any additional questions?
    Mr. Byrne. I do not.
    Mr. Wittman. Okay. Very good.
    Mr. Hunter, any additional questions?
    Mr. Hunter. Dr. Martin reminds me of Robin Williams, with 
all respect.
    Dr. Martin. I have had other people say the same thing, so 
Nanu Nanu.
    Mr. Hunter. That is right.
    Mr. Wittman. Well, with that, if there are no further 
questions, then this subcommittee stands adjourned.
    And, gentlemen, thanks again for your testimony today.
    [Whereupon, at 3:32 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                              May 18, 2017

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 18, 2017

=======================================================================

      

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              May 18, 2017

=======================================================================

      

                   QUESTIONS SUBMITTED BY MRS. DAVIS

    Mrs. Davis. How do you see expeditionary support bases incorporated 
into the future of amphibious operations?
    Dr. Martin. [No answer was available at the time of printing.]
    Mrs. Davis. How do you see expeditionary support bases incorporated 
into the future of amphibious operations?
    Mr. Sloman. [No answer was available at the time of printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. The U.S. Navy is exploring advanced ship defense 
technologies--such as electromagnetic railguns and directed energy 
weapons--that could mitigate the vulnerability of U.S. Navy surface 
ships to anti-ship missile strikes. Additionally, the Navy is pursuing 
a frigate variant to the littoral combat ship with varying mission 
packages as a forward-deployed surface combatant. Could these assets 
extend the missile defense layer over the Marine expeditionary units or 
brigade sea-based connectors during ship-to-shore operations?
    Dr. Martin. [No answer was available at the time of printing.]
    Mr. Langevin. The U.S. Navy is exploring advanced ship defense 
technologies--such as electromagnetic railguns and directed energy 
weapons--that could mitigate the vulnerability of U.S. Navy surface 
ships to anti-ship missile strikes. Additionally, the Navy is pursuing 
a frigate variant to the littoral combat ship with varying mission 
packages as a forward-deployed surface combatant. Could these assets 
extend the missile defense layer over the Marine expeditionary units or 
brigade sea-based connectors during ship-to-shore operations?
    Mr. Sloman. [No answer was available at the time of printing.]

                                  <all>
</pre></body></html>
